           U.S. Department of
                                                                          Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:   INFORMATION: Quality Control Review of                                       Date:   January 4, 2012
           Single Audit on the Metropolitan Atlanta Rapid
           Transit Authority (MARTA)
           Report No. QC-2012-038
                                                                                    Reply To    JA-20
  From:    Earl C. Hedges                                                            Attn Of:
           Program Director for Single Audit


    To:    Regional Administrator, FTA, Region IV

           The U. S. Department of Transportation (DOT) is the cognizant Federal single
           audit agency for the Metropolitan Atlanta Rapid Transit Authority (MARTA).
           This report presents the results of our Quality Control Review (QCR) of a single
           audit performed by Cherry, Bekaert & Holland, LLP on MARTA for the fiscal year
           ending June 30, 2010. During this period, MARTA expended about $131 million
           from DOT grant programs, as shown on the attached Schedule of Expenditures of
           Federal Awards. The major programs tested by Cherry, Bekaert & Holland
           included the Federal Transit Cluster and Clean Fuel Bus Project Grants.
           The Office of Management and Budget’s (OMB) Circular A-133, “Audits of
           States, Local Governments, and Non-Profit Organizations,” requires the auditor to
           render an opinion on the entity’s financial statements, identify inappropriate use of
           Federal funds, and report internal control and compliance deficiencies that affect
           Federal grant programs.

           Cherry, Bekaert & Holland rendered an unqualified (clean) opinion on MARTA's
           financial statements and did not question any costs concerning DOT grant
           programs. In addition, Cherry, Bekaert & Holland rendered an unqualified opinion
           on DOT’s two major programs and did not identify any internal control or
           compliance deficiencies that directly affected DOT programs. 1

           SCOPE

           The purpose of our QCR was to determine: (1) whether the audit work complied
           with generally accepted Government auditing standards, the Single Audit Act of
           1984, as amended (Act), and OMB Circular A-133, and (2) the extent to which we
           can rely on the audit work.

           1
            The single audit report issued by as Cherry, Bekaert & Holland, LLP is available upon request. Requests
             should be sent to singleauditrequest@oig.dot.gov.
                                                                                      2

RESULTS

We determined the work of Cherry, Bekaert & Holland to be Acceptable with
Deficiencies and therefore, it generally met the requirements of generally accepted
Government auditing standards, the Act and OMB Circular A-133. We found
nothing to indicate that Cherry, Bekaert & Holland’s opinion on MARTA’s
financial statements or reports on MARTA’s internal controls and compliance
were inappropriate or unreliable.

However, we identified the need for Cherry, Bekaert & Holland to expand
compliance testing on cash management and reporting requirements, and to correct
deficiencies in audit documentation. Based on explanations provided by Cherry,
Bekaert & Holland in response to our concerns, we have determined that the
deficiencies did not alter the overall results of the audit. The deficiencies should be
corrected in future audits in order to adequately support audit conclusions. The
deficiencies are related to the following areas:

1.   Cash Management.
     Cherry, Bekaert & Holland did not adequately document its compliance
     testing to show how MARTA paid its vendors prior to requesting
     reimbursement from FTA. Cherry, Bekaert & Holland told us that it tested
     cash management on an overall approach by verifying and comparing data
     from MARTA’s financial reports, general ledger, and Electronic Clearing
     House Operation (ECHO) receipt reports, instead of testing individual
     transactions. Because of this approach, it was not evident how the audit
     procedures performed met the audit objectives in the compliance supplement.
     However, Cherry, Bekaert & Holland agreed to better document its
     compliance testing of individual transactions in order to meet the audit
     objectives for cash management in future audits.

2.   Testing of Major Program Internal Controls.
     Cherry, Bekaert & Holland did not adequately document its testing of internal
     controls related to direct and material major program compliance
     requirements. Cherry, Bekaert & Holland prepared internal control narratives,
     performed system walkthroughs, and relied on compliance testing to test
     major program internal controls. However, the documentation did not clearly
     show how compliance testing included tests of major program internal
     controls. During our review, Cherry, Bekaert & Holland provided an
     explanation of its approach to test major program internal controls and agreed
     to fully document this approach in future audits.

3.   Reporting - Report of Disadvantaged Business Enterprise (DBE)
     Awards or Commitments and Payments.
     As part of its determination of direct and material compliance requirements,
     Cherry, Bekaert & Holland concluded that MARTA was not required to
                                                                                 3

     prepare semi-annual DBE reports and therefore, did not test the submission
     and preparation of semi-annual DBE reports. Cherry, Bekaert & Holland
     based this determination on a letter from FTA, dated January 27, 2010, that
     indicated that MARTA was not required to submit regular updates to its DBE
     program as long as it remained in compliance with the DBE program. We
     contacted FTA’s Region IV and were told that the requirement for MARTA
     to submit semi-annual DBE reports remained in effect. In addition, FTA told
     us that MARTA submitted its fiscal year 2010 semi-annual DBE reports and
     is in compliance. Cherry, Bekaert & Holland agreed that in future audits, it
     will test MARTA’s submission and preparation of its semi-annual DBE
     reports to FTA.

4.   Sampling Methodology.
     Cherry, Bekaert & Holland did not document the formal sampling plan and
     methodology it used to test internal controls and compliance related to the
     major programs’ direct and material compliance requirements. According to
     information the auditors provided to us, Cherry, Bekaert & Holland’s
     sampling methodology included adequate sample selections for testing major
     program compliance requirements. However, Cherry, Bekaert & Holland
     agreed to fully document its formal sampling plan and methodology in future
     audits.

If you have any questions concerning this report, please call me at (410) 962-1729,
or John R. Sysak, DOT National Single Audit Coordinator, at (410) 962-2630.

                                        #
cc: Audit Liaison, FTA, TPM-2
    Audit Liaison, OST, M-1
